    DEPARTMENT OF HOMELAND SECURITY

        Office of Inspector General



       A Review of U.S. Customs and Border 

       Protection’s Procurement of Untrained 

                      Canines 





OIG-08-46                             April 2008
                                                                       Office of Inspector General

                                                                       U.S. Department of Homeland Security
                                                                       Washington, DC 20528




                                         April 24, 2008

                                             Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

This report addresses concerns raised by Chairman Bennie G. Thompson and Representative
Kendrick B. Meek regarding the United States Customs and Border Protection’s procurement of
untrained canines. It is based on interviews with employees and officials of relevant agencies and
institutions, direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                             Richard L. Skinner 

                                             Inspector General 

Table of Contents/Abbreviations 



Executive Summary ...............................................................................................................................1 


Background ............................................................................................................................................2 


Results of Review ..................................................................................................................................3 


     CBP Paid a Competitive Average Price per Canine ........................................................................3 


     CBP’s Solicitation and Award Processes Complied 

     With Applicable Federal Acquisition Regulations ..........................................................................4 


     Delivery Timeframe Should Coincide With Receipt of Purchase Order.........................................6 


     Vendors Were Not Subject to USDA Licensing Requirements ......................................................7 


     Eight Percent of Canines Did Not Pass Required Training Tests....................................................8 


     CBP Needs to Donate or Sell Unfit Canines According to Applicable Federal Regulations..........9 


     Training and Boarding Costs for Canine Teams Are Consistent...................................................10 


     The Canine Program Serves as an Essential Tool in Securing U.S. Borders ................................11 


     Improvements in Canine Performance Tracking Systems Are Needed.........................................14 


Additional Issue Regarding CBP Canine Teams…………………………………………………........15 


     Infrastructural Improvements at Land POEs and Permanent Checkpoints 

     Could Enhance Canine Performance and Safety…………………………………………….........15 


Management Comments and OIG Analysis ........................................................................................17 




Appendices
     Appendix A:             Purpose, Scope, and Methodology .......................................................................19 

     Appendix B:             Management Comments to the Draft Report…………………………………... 21 

     Appendix C:             Congressional Letter.............................................................................................25 

     Appendix D:             Major Contributors to this Report ........................................................................29 

     Appendix E:             Report Distribution...............................................................................................30 

Abbreviations
  APHIS         Animal and Plant Health Inspection Service
  ATCET         Anti-Terrorism Contraband Enforcement Team
  CBP           U.S. Customs and Border Protection
  DHS           U.S. Department of Homeland Security
  DOD           U.S. Department of Defense
  FAR           Federal Acquisition Regulation
  FY            Fiscal Year
  IDIQ          Indefinite Delivery Indefinite Quantity
  JFK           John F. Kennedy International Airport
  OBP           Office of Border Patrol
  OFO           Office of Field Operations
  OIG           Office of Inspector General
  OTD           Office of Training and Development
  POE           Port of Entry
  SBI           Secure Border Initiative
  USDA          U.S. Department of Agriculture
OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                    Chairman Bennie G. Thompson and Representative Kendrick B. Meek, U.S.
                    House of Representatives Committee on Homeland Security, requested that
                    we review a contract awarded by U.S. Customs and Border Protection to
                    procure and deliver untrained canines to its canine training facilities. They
                    expressed concerns that the contract costs may be outside of a reasonable
                    price range for untrained dogs. We were also requested to review vendor
                    licensing requirements, the percentage of canines unsuitable for service, and
                    the role of dog deployment in the overall border protection strategy.

                    From April 2006 through June 2007, U.S. Customs and Border Protection
                    procured 322 untrained canines at a cost of $1.46 million, or an average price
                    of $4,535 per canine. The costs incurred for the untrained canines were
                    reasonable and were comparable to the costs incurred for untrained canines
                    procured by organizations such as the United States Secret Service and the
                    Department of Defense. Regarding the cost effectiveness of the program,
                    while only 3.85% of the Office of Border Patrol’s 13,905 agents were canine
                    handlers, they were credited with 60% of narcotic apprehensions and 40% of
                    all other apprehensions in FY 2007.

                    The solicitation and award of this contract were conducted according to
                    applicable federal regulations. Also, U.S. Department of Agriculture officials
                    said that the vendors were not required to possess a federally issued license to
                    engage in the sale of animals. Through August 14, 2007, 26 or 8% of the
                    procured canines did not complete the training. CBP donated six of these
                    canines to private homes, which was inconsistent with federal regulations.

                    We recommend that U.S. Customs and Border Protection adjust the delivery
                    timeframes for vendors, properly transfer or sell unfit canines, and implement
                    a unified system that accurately accounts for the performance of canine teams.
                    U.S. Customs and Border Protection generally concurred with all
                    recommendations.



         A Review of U.S. Customs and Border Protection’s Procurement of Untrained Canines 


                                              Page 1

Background
                 As the largest and most diverse law enforcement canine program in the
                 country, U.S. Customs and Border Protection’s (CBP) Canine Enforcement
                 Program has the mission to combat terrorism, and interdict narcotics and other
                 contraband while helping to facilitate and process legitimate trade and travel.
                 As such, CBP officers use specially-trained detector dogs to interdict illegal
                 narcotic substances, smuggled humans, explosives, and agricultural products,
                 and unreported currency at our Nation’s ports of entry (POE).

                 CBP maintains two separate canine programs to meet the needs of the
                 agency’s diverse responsibilities. The Office of Field Operations (OFO)
                 canine program comprises 595 canine teams, each consisting of a canine and a
                 handler, which are primarily stationed at our Nation’s land, sea, and air POEs.
                 The Office of Border Patrol (OBP) canine program has 540 canine teams that
                 maintain responsibility for border areas between the ports of entry.

                 The Canine Center – Front Royal, formerly known as the Canine Enforcement
                 Training Center in Virginia, trains canines for the OFO canine program. The
                 Canine Center – El Paso, formerly known as the National Canine Facility in
                 Texas, trains canines for OBP. The two training centers are managed by the
                 Office of Training and Development. Although the Canine Center – Front
                 Royal and the Canine Center – El Paso facilities have the capacity to train a
                 maximum of 250 and 150 canine teams, respectively, in a 12-month period,
                 the actual number of canine teams that require training in a fiscal year (FY) at
                 each of the training centers is determined by its respective offices.

                 The Front Royal facility trained 100 canine teams in fiscal year (FY) 2006,
                 and expected to train 150 canine teams in FY 2007. This center trains canines
                 to detect narcotics, explosives, concealed humans, and currency. The training
                 for explosives is 15 weeks, while all other training is 13 weeks. The El Paso
                 facility trained 127 canine teams in FY 2006, and expected to train 144 canine
                 teams in FY 2007. This facility trains canines to detect both narcotics and
                 concealed humans.

                 In December 2005, CBP developed an acquisition plan to facilitate the
                 centers’ procurement of untrained canines. An indefinite delivery indefinite
                 quantity (IDIQ) multiple award contract was determined to be the most
                 appropriate procurement vehicle to acquire canines on an as-needed basis, and
                 to solicit and award as many qualified vendors as possible. The contract
                 included one base year and four option years, for a total performance period of
                 five years, if all option years are exercised.



      A Review of U.S. Customs and Border Protection’s Procurement of Untrained Canines 


                                           Page 2

                   Since its inception, both facilities followed their own procedures to sell or
                   donate unfit canines. Included in this group are canines that retired,
                   underperformed, or did not pass required training tests.

Results of Review
     CBP Paid a Competitive Average Price per Canine
                   Information maintained by the Office of Procurement showed that from April
                   2006 to June 2007, CBP procured 322 untrained canines from seven vendors
                   at a cost of $1.46 million. CBP pays the successful bidder up to $200 to ship
                   each canine. Shipping costs for the 322 untrained canines totaled $33,788.
                   Therefore, the average price per canine including shipping costs is $4,535, and
                   the average price per canine excluding shipping costs is $4,430.

                   We contacted the United States Secret Service and Transportation Security
                   Administration to determine the average purchase price of canines used in
                   their agencies’ programs. The United States Secret Service paid an average of
                   $4,533 for 16 untrained canines as part of its current contract for FY 2006 to
                   FY 2008. The Secret Service contract includes a provision that considers the
                   fluctuating value of the U.S. dollar against the euro and authorizes up to $450
                   above the cost per canine.

                   Through an Interservice Support Agreement, the Transportation Security
                   Administration receives untrained canines from the U.S. Department of
                   Defense (DOD). DOD sends agency personnel to procure untrained canines
                   directly from Europe. Due to the large quantity, the department uses a blanket
                   purchase agreement to buy approximately 600 canines from European vendors
                   annually at a reduced rate. DOD currently pays an average of $3,500,
                   including shipping costs, for each untrained canine it purchases.

                   Prior to the solicitation and award of this contract, CBP reviewed procurement
                   prices in previous contracts, and determined that the cost per canine ranged
                   between $3,300 and $3,800. The cost per canine was determined based on the
                   Front Royal facility’s procurement of canines from three vendors via purchase
                   orders, and the El Paso facility’s procurement of canines through an IDIQ
                   multiple award contract, which expired at the end of FY 2005. Also, our
                   review of CBP’s evaluation of bids received in response to its solicitation to
                   procure untrained canines demonstrated that CBP followed applicable
                   guidelines in assessing proposed costs.

                   Due to the continued weakness of the U.S. dollar against the euro since April
                   2006, canine vendors now require an increasing amount of U.S. dollars to buy


        A Review of U.S. Customs and Border Protection’s Procurement of Untrained Canines 


                                             Page 3

              untrained canines from Europe, the primary source for canines that meet
              CBP’s standards. At an average cost of $4,435 per canine, we conclude that
              CBP has procured quality canines at a reasonable cost.

CBP’s Solicitation and Award Processes Complied With Applicable
Federal Acquisition Regulations
              Due to the unknown number of canines required throughout the period of
              performance, CBP’s Office of Procurement issued an Indefinite Delivery
              Indefinite Quantity (IDIQ) multiple award contract for vendors to provide
              untrained canines. On February 9, 2006, the solicitation was issued as a
              competitive commercial acquisition under the principles of Federal
              Acquisition Regulation (FAR) Part 12. As part of the solicitation and award
              process, CBP also followed applicable provisions of FAR Part 5, 6, 9, 11, and
              15. In April 2006, CBP announced and awarded the contract to seven
              vendors. The contract included one base year, April 6, 2006, to April 5, 2007,
              and four option years, which could extend the contract to April 5, 2011.

              The Solicitation Process

              As required by FAR Subpart 11.1, Selecting and Developing Requirements
              Documents, the Contracting Officer’s Technical Representatives provided the
              technical requirements in the Statement of Work that identified the canine
              needs for Front Royal and El Paso, the description of the canines, the selection
              criteria, and required documentation.

              To obtain information on potential vendors in the canine marketplace, the
              Office of Procurement contacted certification groups such as the North
              American Police Dog Association, the National Narcotic Detector Dog
              Association, and the National Police Canine Association. The Office of
              Procurement requested additional guidance from the El Paso facility since it
              had purchased canines under a similar contracting arrangement prior to its
              merger with the U.S. Department of Homeland Security (DHS). El Paso
              facility officials said that the CBP canine contract was well known throughout
              the canine industry since it was publicized and announced at national
              conferences and other events during the preceding year.

              In the solicitation’s Pricing Schedule attachment, the vendors were required to
              bid a fixed amount to include the price of one canine plus shipping costs to
              Front Royal, El Paso, and any other DHS location for components that may
              wish to use this contract to procure untrained canines in the future.




   A Review of U.S. Customs and Border Protection’s Procurement of Untrained Canines 


                                        Page 4

           CBP posted the announcement of the solicitation order on the FedBizopps.gov
           website, in accordance with the FAR 6.102, Use of Competitive Procedures,
           to ensure full and open competition. As specified in FAR 5.203(a)(1), the
           solicitation for the acquisition of commercial items can be published for less
           than 15 days. CBP’s solicitation for untrained canines was open from
           February 9 to February 24, 2006, for a total of 16 days.

           The Award Process

           Nine vendors responded to CBP’s solicitation for untrained canines.
           Prospective vendors were evaluated on the basis of past performance and
           price bids, according to the evaluation criteria outlined in FAR 15.305.

           To evaluate past performance, a Source Selection Evaluation Team, headed by
           a canine training center director:

               •	 Reviewed orders filled by prospective vendors for a minimum of five
                  untrained canines in the past three years;
               •	 Contacted the prospective vendors’ references; and
               •	 Assessed their responses to the Reference Questionnaire they were
                  required to complete regarding their past experiences in delivering
                  untrained canines.

           All nine vendors were canine trainers. CBP officials and vendors said that
           based on past experience, canines from trainers are more likely to satisfy the
           statement of work requirements than breeders. Also, they are more likely to
           pass pre-selection tests because the canines have completed prior training.

           Based on past performance, the Source Selection Evaluation Team assigned
           an adjectival rating to all vendors who responded to the solicitation. Vendors
           could be rated outstanding, good, neutral, acceptable, marginal, or
           unacceptable. Four of the winning bidders were rated outstanding, two were
           rated good, and the other received a neutral rating.

           CBP evaluated the vendors’ prices for fairness and reasonableness based on
           the price analysis technique specified in FAR 15.404 –1(b), which requires
           that the price determined for the award be fair and reasonable. CBP compared
           the proposed prices from the base year to the fourth option year, and
           determined the price per canine among the vendors to be similar throughout
           all of the proposed contract years. Vendors who proposed to deliver canines
           to two locations were compared separately from those who proposed to
           deliver canines to three locations. Bids from vendors ranged from $3,500 to
           $6,000 in the base year, and from $4,000 to $8,000 in the fourth option year of


A Review of U.S. Customs and Border Protection’s Procurement of Untrained Canines 


                                     Page 5

              the contract. The total estimated price reflects differences in delivery charges
              for the vendors’ proposed pricing over the entire five-year contract and the
              price per canine.

              Based on past performance and price proposals, seven of the nine vendors met
              the general standards of responsible prospective contractors as outlined in
              FAR 9.104, and were subsequently awarded the contract. One vendor
              received a neutral rating, but was still considered for the award because as a
              small and new business, strong technical standing outweighed its limited past
              performance, which is a trade-off permissible under FAR 15.101-1. Two
              vendors were excluded from consideration due to a marginal rating for past
              performance, and submitting a bid that only included base year prices when
              the solicitation required vendors to bid prices for all five years.

              A determination of the vendors’ ability to board and care for the canines was
              not included as part of the review process. According to FAR 12.208,
              “Contracts for commercial items shall rely on contractors’ existing quality
              assurance systems as a substitute for Government inspection and testing…”

              Although nine vendors had to bid price per canine to fulfill the solicitation
              requirements, the price CBP actually pays its seven vendors is the winning bid
              amount for each subsequent delivery order.

Delivery Timeframe Should Coincide With Receipt of Purchase Order
              According to CBP officials, when a specific delivery order for canines is
              awarded to a vendor selected under this contract, the vendor is allowed 30 to
              45 days from the award date to deliver canines to the training centers.
              Vendors expressed concern about the short timeframe between official
              confirmation from the Office of Procurement that they have been awarded a
              specific order for canines, and the required delivery date to the training center.

              After vendors have submitted bids for a specific canine order, the Office of
              Procurement notifies the successful vendor(s) that they have been tentatively
              awarded an order to deliver canines by a specific date. The Office of
              Procurement’s interpretation of the tentative award notification to successful
              vendors means that the vendor has been awarded the specific delivery order.
              However, vendors do not interpret the tentative notification as the official
              award notification, and do not initiate actions to procure canines until receipt
              of a purchase order from CBP, officially confirming the order. As a result, the
              available time for vendors to purchase the canines from Europe and deliver
              them to the training centers is reduced by the length of time between CBP’s
              tentative award notification and their receipt of a purchase order. This results


   A Review of U.S. Customs and Border Protection’s Procurement of Untrained Canines 


                                        Page 6

                        in vendors not always having sufficient time to meet the 30- to 45-day
                        delivery timeframe.

                Recommendation
                        We recommend that the Commissioner of U.S. Customs and Border
                        Protection:

                        Recommendation 1: Start the 30- to 45-day delivery requirement on the date
                        that coincides with the vendors’ acknowledgement of receipt of the purchase
                        order.

         Vendors Were Not Subject to USDA Licensing Requirements
                        Based on our review of regulatory guidelines and discussions with officials
                        from the U.S. Department of Agriculture’s (USDA) Animal and Plant Health
                        Inspection Service (APHIS), we conclude that the licensing requirements for
                        the Animal Welfare Act do not apply to vendors supplying canines to CBP.

                        The Animal Welfare Act provides guidance regarding the need to possess a
                        valid USDA license to sell or breed canines.1 Under the Act, APHIS issues
                        three types of licenses to animal dealers falling under either: Class A, which
                        includes commercial breeders; Class B, which includes brokers and auction
                        operators; or Class C, which includes animal breeders. Other business
                        categories are entirely excluded from this requirement, including retail pet
                        stores, retail chain stores, hobby breeders, animal shelters, and boarding
                        kennels.

                        According to APHIS officials, vendors selling canines to CBP are not required
                        to possess a USDA license because they are engaged in retail sales, with
                        “retail” being defined as a sale to an end user. This exemption extends to the
                        direct sale of security canines to a final user since this constitutes a retail sale.
                        APHIS officials also said that the seller who originally sold the canines to the
                        vendors for resale to CBP would be subject to licensing by USDA. However,
                        since all of the vendors purchase canines for CBP’s training programs from
                        European suppliers, the licensing requirement does not apply.

                        Vendors are subject to applicable state and local laws, which vary
                        dramatically by state. For example, one vendor selected by CBP under this
                        contract is located in Rhode Island, and licensed by both the state and county
                        to sell and kennel canines. To remain in good standing with his licenses, his

1
    7 U.S.C. § 2133

             A Review of U.S. Customs and Border Protection’s Procurement of Untrained Canines 


                                                   Page 7

              facility is inspected annually at a minimum, as well as at random. In 2004,
              seven canines died while kenneled at this vendor’s facility. The canines had
              been left in a room overnight when the air conditioning unit malfunctioned,
              which resulted in the dogs dying of heatstroke. The state veterinarian’s office
              immediately suspended the vendor’s license pending the outcome of a full
              investigation, after which the license was reinstated, and the vendor has had
              no other incidents since that time.

Eight Percent of Canines Did Not Pass Required Training Tests
              The training centers select only those canines that successfully pass their
              required tests. Even if a dog is selected initially, there is a 20-day period
              before a final selection is made. During the 20-day period, the canines are
              observed to confirm that they are disease-free, medically fit, and acceptable
              for the program. If the training centers determine that a dog is unfit for
              training, the vendor must replace it at its own cost.

              A demonstration of the pre-selection test at the El Paso Facility




              A training center official said that a very small percentage of canines fail the
              training program. One vendor explained that a major incentive to provide
              quality canines is reputation within the industry. According to the vendor, this
              is a small community where word spreads quickly if a vendor is not providing


   A Review of U.S. Customs and Border Protection’s Procurement of Untrained Canines 


                                        Page 8

              quality canines to meet customer demands. Another control on vendors’
              practices is that they use their own money to purchase these canines without a
              guarantee that the dogs will be repurchased by CBP or any other customer.

              According to information provided by the Office of Training and
              Development, as of August 14, 2007, 26 or 8% of the procured canines did
              not successfully complete the required training course. Lack of success was
              due to failure to detect an odor for which the canine was trained to recognize,
              or insufficient genetic drive, which is an inherent trait required for detection
              training candidates.

CBP Needs to Donate or Sell Unfit Canines According to Applicable
Federal Regulations
              According to 40 U.S.C. § 555 and 41 C.F.R. § 102-36.365, when a canine is
              no longer needed for law enforcement duties, the agency may donate the
              canine to an individual who has experience handling canines in the
              performance of those official duties. However, these laws do not permit the
              sale or donation of canines to private homes.

              Of the 23 canines at the Front Royal facility that were not certified, 15 were
              donated to other federal, state, and local law enforcement agencies, two were
              sold, and six were provided to private homes. All three of the canines that
              failed certification at the El Paso facility were given to federal handlers for
              adoption.

              CBP officials said that they believe that the General Services Administration
              exempted the agency from this federal regulation because canines are live
              animals. However, they were unable to provide documentation to support an
              exemption. In the absence of a valid exemption, CBP must provide the
              canines to the General Services Administration for appropriate removal from
              the Canine Enforcement Program.

      Recommendation

              We recommend that the Commissioner of U.S. Customs and Border
              Protection:

              Recommendation 2: Donate or sell unfit canines according to applicable
              federal regulations.




   A Review of U.S. Customs and Border Protection’s Procurement of Untrained Canines 


                                        Page 9

Training and Boarding Costs for Canine Teams Are Consistent
              According to information provided by the Office of Training and
              Development, the Front Royal and El Paso facilities have the capacity to train
              a maximum of 250 and 150 canine teams, respectively, in a 12-month period.
              We determined that the training centers’ costs associated with training and
              boarding canine teams do not fluctuate based on the method used to procure
              the canines. Also, dog handlers receive the necessary training along with their
              canines regardless of the procurement method. The total costs to board and
              train canine teams for specific classes at the training centers are shown in
              Tables 1 and 2.

              Table 1: Training and Boarding Costs of Canine Teams at Front Royal
                 Fiscal                                  Number of CBP
                                Training Class                                   Total Costs
                 Year                                      Handlers
                             Narcotics                        66                 $938,850
                  2006
                             Explosives                       19                 $350,550
                  2007       Narcotics                       133                 $2,195,165




              Table 2: Training and Boarding Costs of Canine Teams at El Paso
                Fiscal                                             Number of          Total
                                    Training Class
                Year                                              CBP Handlers        Costs
                           Handler Class                              87             $607,995
                           Returning Handler Class                    22             $131,670
                 2006
                           Search & Rescue Handler Class               6             $78,120
                           Tracking & Training Class                   12            $76,800
                           Handler Class                              101            $705,485
                           Returning Handler Class                    20             $119,700
                 2007      Search & Rescue Handler Class               6             $78,120
                           Tracking &Training Class                    3             $18,000
                           Human Remains Class                         2             $21,860




   A Review of U.S. Customs and Border Protection’s Procurement of Untrained Canines 


                                        Page 10

The Canine Program Serves as an Essential Tool in Securing U.S. Borders

              To observe the work of canine teams, we conducted site visits to POEs in El
              Paso and Laredo, Texas, and John F. Kennedy International (JFK) and
              Newark Liberty International Airports. We also visited Border Patrol
              checkpoints in Las Cruces, New Mexico, and Laredo, Texas. At all locations,
              we learned that OFO officers and OBP agents valued the canines for their
              ability to efficiently clear people and vehicles with minimum wait times at
              POEs and checkpoints, as well as locate migrants and smugglers crossing
              through the desert.

              Canine Teams at Ports of Entry

              OFO maintains canine teams trained to detect a variety of odors to fit its broad
              mission of interdicting illegal narcotic substances, smuggled humans and
              agricultural products, and unreported currency at our Nation’s POEs. At the
              Front Royal facility, canines are trained for the following forms of detection:

                  •	 Narcotics – to detect and interdict narcotics;
                  •	 Concealed Human/Narcotics – to detect concealed narcotics, and
                     people attempting to enter the United States illegally;
                  •	 Currency – to detect the odor of undeclared U.S. currency before it is
                     smuggled out of the country to circumvent monetary reporting
                     requirements; and
                  •	 Explosives – to detect explosive odors concealed in cargo, vehicles,
                     aircraft, luggage, and on passengers.

              CBP also maintains agriculture detector dogs to detect prohibited fruits,
              vegetables, or meats that may carry pests, or animal and plant diseases
              harmful to U.S. agricultural resources. Those canine teams are trained
              separately at a USDA academy in Orlando, Florida, and were not included as
              part of this contract.

              Most of the OFO canines working at the land POEs are trained to detect
              narcotics and concealed humans, and are capable of screening a vehicle in
              seconds. Depending on their availability at a POE, explosive detection
              canines also screen vehicles. Knowing that a vehicle has been searched by a
              detector dog for drugs, people, or possible bomb-making materials, the
              officers working in the primary inspection booths can focus their attention on
              the occupants’ behavior or their possible connection to other criminal
              activities. Primary inspection officers have the discretion to refer vehicles to
              the secondary inspection area for a full inspection using a canine team that can
              complete the inspection in about five minutes. An equivalent inspection


   A Review of U.S. Customs and Border Protection’s Procurement of Untrained Canines 


                                        Page 11

           without the use of a canine would require an officer at least 20 minutes. With
           port directors under pressure to minimize wait times, the canines serve a
           unique role in maintaining traffic flow through the lanes without
           compromising security.

           Many of the canine teams stationed at airport POEs operate with more public
           interaction. Occasionally, explosive detection canine teams will check
           individual passengers in the baggage claim areas, which are regularly
           inspected by agricultural canine teams. OFO officials at JFK and Newark
           Airports explained that the canine teams operate in conjunction with their
           Anti-Terrorism Contraband Enforcement Teams (ATCET), which use
           intelligence and threat information to conduct local targeting operations.
           Since there are not enough canine teams to search every arriving international
           flight, OFO must determine which flights to search through the ATCETs.
           OFO determined that this method is more effective in yielding larger finds of
           contraband and breaking up smuggling rings than searching each passenger
           individually as they disembark the plane. The narcotics or explosives
           detection dogs may also inspect the cargo and luggage of selected flights, if
           the search will not prolong the movement of these items. OFO randomizes
           targeted flights and the types of searches conducted to prevent evasion by
           potential smugglers.

           OFO also maintains currency detection canines to check outbound vehicles,
           passengers, and cargo for large currency loads before they are taken out of the
           country. However, for the sites we visited, the presence of currency detection
           teams was minimal. JFK and Newark airports have been without currency
           canines for the past year because CBP’s focus was to fill its backlog of other
           canine vacancies.

           At the seaports, canine teams are an essential part of OFO’s efforts to clear
           shipments and containers that must be inspected because of the country of
           origin, the product being shipped, the shipping company, or other factors that
           inform targeting decisions. The canines are flexible and can be easily moved
           from shipment to shipment, climbing on top of and around items in ways that
           would physically challenge officers.

           Canine Teams Along U.S. Borders

           OBP’s challenge lies in the thousands of miles of border that must be covered
           by its agents. There are a limited number of technological tools to help agents
           during their patrols, with sensors and cameras being the most prominent.
           However, as canines rely on their sense of smell instead of sight, they



A Review of U.S. Customs and Border Protection’s Procurement of Untrained Canines 


                                     Page 12

                          represent an important tool in tracking people who have illegally crossed the
                          border.

                          In addition, the canines enhance OBP’s interior enforcement efforts at
                          strategically placed checkpoints located miles from the borders by quickly
                          inspecting approaching vehicles along the roadway and providing a deterrent
                          effect. For example, agents at one checkpoint told us they regularly find
                          abandoned narcotic loads left along the highway leading to the checkpoint
                          after the smugglers’ spotters informed them that a canine was on duty.

                          While only 3.85% of the Office of Border Patrol’s approximately 13,905
                          agents are canine handlers, they were credited with 60% of narcotic
                          apprehensions and 40% of all other apprehensions in FY 2007. Unlike OFO,
                          which has jurisdictional authority to search anyone at a POE, OBP officials
                          told us that its agents must have probable cause to search passenger vehicles.
                          Therefore, the canine teams are not only helpful for finding narcotics and
                          smuggled humans, but serve as a useful tool in providing probable cause for
                          agents to search suspicious vehicles or people.

                          The Canine Program and the Secure Border Initiative

                          According to CBP officials, the planning and deployment of canine teams is
                          conducted every fiscal year by OFO and OBP.2 Regarding the Secure Border
                          Initiative (SBI) and SBInet, canine teams are part of a layered enforcement
                          strategy. The Canine Enforcement Program augments existing technology by
                          deploying detector dog teams that enhance border security by efficiently
                          screening conveyances at ports of entry.

                          To date, CBP’s Canine Enforcement Program has not been integrated into the
                          Security Border Initiative (SBI) and SBInet. When it is integrated, OBP
                          officials said they will adjust the deployment of their canine resources, which
                          is expected to increase. Both OFO and OBP officials said that the Canine
                          Enforcement Program is so essential to their mission that the canines will not
                          be replaced by technology, but will complement it.




2
  SBInet is a program to develop and deploy the optimum mix of personnel, technology, and tactical infrastructure to
gain control of the border. SBInet chose to focus the first comprehensive border security solution along 28 miles
contiguous to the Sasabe, Arizona, port of entry.


              A Review of U.S. Customs and Border Protection’s Procurement of Untrained Canines 


                                                       Page 13

Improvements in Canine Performance Tracking Systems Are Needed
              Within the Canine Enforcement Program, OFO and OBP canine teams are
              tracked separately within each office’s computer systems. We requested
              information from OFO and OBP regarding the number of total canine-initiated
              interdictions. While OBP provided updated performance information on its
              canine teams, we determined that OFO is limited in its reporting capabilities
              due to its reliance on an outdated system. Without such information, OFO
              cannot make objective judgments about the value of its canine teams in
              relation to overall interdictions each fiscal year or determine the optimal
              number for each type of team.

              OFO’s “Detector Dog System” tracks canine interdictions and is used to
              produce an annual cost-effectiveness ratio for its teams. However, the ratio’s
              computations are based on 1994-1995 costs, which was the last time the 20-
              year-old system was updated. An OFO official said that updating the system
              with current cost information would require several hundred thousand dollars
              because it was created using a computer code that is no longer in use, and
              funding has not been made available for this effort.

              Because of the costs required for this update, an OFO official said that they
              are considering replacing the current Detector Dog System with a system that
              will incorporate the needs of CBP including the canine program statistics used
              by OFO, OBP, and the OTD training centers. This will provide CBP with a
              unified system of generating, maintaining, and reporting canine seizure
              statistics.

              Without updated cost information, the Detector Dog System is generating
              inaccurate cost-effectiveness ratios, and data that do not accurately reflect the
              performances of OFO canine teams. The ratios provided from this system,
              suggest that OFO’s canines have returned at least $100 for every $1 of
              deployment costs for handler salaries, ongoing training, and kenneling costs
              during four of the past five fiscal years. Because this information is not based
              on current costs, these figures are of limited value in OFO’s decision-making
              process regarding the canine program.

              The only other system currently available to OFO is its main interdiction
              tracking system, which relies on officer entries at POEs. However, an OFO
              official said that this is not as reliable as the Detector Dog System for tracking
              canine performances because officers at POEs do not always enter canine-
              initiated interdictions into this system. OBP’s system, by contrast, requires
              agents to indicate which interdictions were canine-initiated, enabling OBP to
              count canine interdictions as a percentage of total interdictions, which are


   A Review of U.S. Customs and Border Protection’s Procurement of Untrained Canines 


                                        Page 14

                  stratified by type. Such a measurement allows OBP to view the canine teams’
                  performances in relation to its overall interdictions, as shown in Chart 1.


                                          Chart 1: OBP - Percent of Total Seizures Assisted By
                                                               Canines

                                     70
                     In Percentage   60
                                     50
                                     40
                                     30
                                     20
                                     10
                                     0
                                                    Narcotics                         Currency


                                                                 FY05   FY06   FY07



          Recommendation
                  We recommend that the Commissioner of U.S. Customs and Border
                  Protection:

                  Recommendation 3: Implement plans for a unified system within CBP to
                  accurately track the performance of its canine teams.

Additional Issue Concerning CBP Canine Teams
    Infrastructural Improvements at Land POEs and Permanent Checkpoints
    Could Enhance Canine Performance and Safety
                  During our site visits along the Southern border in El Paso, Laredo, and Las
                  Cruces, we observed infrastructural deficiencies that affect the performance
                  and safety of the canine teams. Officials from the Office of Finance-Asset
                  Management stated that the process to improve the physical infrastructure at
                  ports of entry and permanent border checkpoints is complex, lengthy, and
                  budget-constrained. They also said that modernization is a challenge across
                  the board, where funding must be aligned against operational priorities.
                  While we are not making any recommendations based on our observations at
                  three locations, we believe these issues warrant management’s attention.



       A Review of U.S. Customs and Border Protection’s Procurement of Untrained Canines 


                                                      Page 15

           At POEs in El Paso and Laredo, officials told us that while the canines are
           very effective in detecting their trained odors, they also tire easily in the heat.
           The preprimary inspection areas in both areas are largely uncovered, while a
           canopy covers the primary inspection booths. Canine officers constantly
           monitor their dogs for signs of heat exhaustion and must take care that the
           dogs’ paws do not get burned by extended periods on the asphalt. These
           conditions limit the amount of time that each team can work, resulting in
           frequent breaks during the eight-hour shift.

           OBP officials at the Las Cruces station said their canines experience similar
           issues at Border Patrol checkpoints, such as the one along Interstate-10
           highway. In addition to problems with excessive heat, the checkpoint has
           only a single lane that does not allow for the continuous movement of traffic
           when a driver is stopped for extended questioning. Therefore, agents stop
           100% of trucks and buses for questioning, and only stop passenger vehicles
           randomly to avoid traffic congestion. Also, since traffic is constantly moving,
           canines are unable to screen vehicles before they reach the inspection area.
           There are no medians or other infrastructure to separate vehicles from the
           agents and canines, which was a factor in the recent death of one canine hit by
           a truck.

           OBP officials in Las Cruces said the Interstate-10 facility is now undergoing a
           $5 million expansion, which is scheduled for completion in March 2008. The
           improvements will separate commercial traffic from passenger vehicles about
           a mile before the actual checkpoint, which should reduce traffic volume by
           45%. The checkpoint will also have telecommunications systems in the
           inspection booths and a canopy over the inspection area to provide dogs, the
           handlers, and other agents shelter from the heat. The separate commercial
           area will have two lanes and a separate area to accommodate equipment
           capable of detecting hidden compartments in vehicles undergoing full
           inspections.

           We visited another OBP checkpoint located approximately 30 miles north of
           Laredo along Interstate-35. Opened in April 2006 at a cost of $15.5 million,
           the checkpoint features six lanes separated by medians. Depending on traffic
           volume, OBP can staff each open lane with an agent to process more vehicles
           simultaneously and minimize traffic congestion. With the vehicles lined up
           similar to a land POE, the canine teams have sufficient time and space to
           safely screen each vehicle. The facility is also covered in order to protect the
           canines, their handlers, and other agents from the intense heat. According to
           OBP agents, this facility is considered to be a model for OBP; however, the
           medians between each lane are too narrow for the canine teams to walk on.



A Review of U.S. Customs and Border Protection’s Procurement of Untrained Canines 


                                     Page 16

           Handlers have their canines step off the median to get closer to the vehicles,
           increasing the level of risk for the canine teams.

   Management Comments and OIG Analysis
           We evaluated technical and written comments prepared by CBP regarding our
           draft report, and where appropriate, made changes to ensure the accuracy of
           information. CBP management agreed with the report findings and
           recommendations, and provided an alternative corrective action for
           Recommendation 1. A copy of CBP’s written comments, in its entirety, is
           included as Appendix B.

           Recommendation 1: Start the 30- to 45-day delivery requirement on the date
           that coincides with the vendors’ acknowledgement of receipt of the purchase
           order.

           CBP Response: CBP agreed, in part, with our recommendation, and
           provided an alternative corrective action. CBP said that the Government has
           no control over when a vendor acknowledges receipt of a purchase order, and
           that acknowledgement of new orders can take time. CBP has begun to e-mail
           purchase orders directly to selected vendors on the date of award. The
           delivery period starts from the date of order identified in Block 1 of Office of
           Finance Form 347, and end on the delivery date identified in Block 15. The
           delivery period is for at least 30 days.

           OIG Analysis: We consider CBP’s alternative corrective action responsive to
           the recommendation. The recommendation is resolved and open pending
           verification that CBP has implemented this notification process as part of their
           standard operating procedures.


           Recommendation 2: Donate or sell unfit canines according to applicable
           federal regulations.

           CBP Response: CBP concurred with our recommendation, and noted that
           Federal Management Regulations do not address the unique requirements of
           live animals, such as their care and feeding, and do not distinguish them from
           other forms of government personal property. CBP has been working with the
           General Services Administration to bring the agency’s practices into full
           compliance with Federal Management Regulations.




A Review of U.S. Customs and Border Protection’s Procurement of Untrained Canines 


                                     Page 17

           OIG Analysis

           We consider CBP’s comment responsive to the recommendation, which is
           resolved and open. This recommendation will remain resolved and open
           pending our receipt of (1) the results of on-going efforts with General Services
           Administration to bring the agency’s practices into full compliance with
           Federal Management Regulations, and (2) verification that CBP has
           developed and implemented a process to donate or sell unfit canines according
           to applicable federal regulations.

           Recommendation 3: Implement plans for a unified system within CBP to
           accurately track the performance of its canine teams.

           CBP Response: CBP agreed with our recommendation. The Office of Field
           Operations, Office of Border Patrol, Office of Training and Development, and
           Office of Information Technology within CBP have held initial meetings to
           detail the requirements of a unified system within CBP. Unfunded requests
           have been filed to support this endeavor. Once the unfunded requests are
           approved, the project will advance to the development stage where individual
           offices can determine which information can be unified to facilitate the
           reporting and tracking of specific performance related measures. CBP expects
           this system to be implemented by April 1, 2009.

           OIG Analysis: We consider CBP’s comments responsive to the
           recommendation, which is resolved and open. This recommendation will
           remain resolved and open pending our receipt of documentation verifying
           actions taken by CBP to accurately track performance related measures.




A Review of U.S. Customs and Border Protection’s Procurement of Untrained Canines 


                                     Page 18

Appendix A
Purpose, Scope, and Methodology


                     At the joint requests of Representatives Bennie Thompson and Kendrick
                     Meek, U.S. House of Representatives Committee on Homeland Security, we
                     reviewed a U.S. Customs and Border Protection (CBP) contract awarded to
                     seven vendors to procure and deliver untrained canines to its canine training
                     centers. The congressmen expressed concern that the contract costs may be
                     outside of a reasonable price range even for fully trained dogs.

                     The purpose of our review was to determine: (1) the reasonableness of CBP’s
                     contracts with seven vendors regarding the procurement of untrained canines;
                     (2) whether specific aspects of CBP’s award process complied with applicable
                     federal regulations and other guidelines; (3) the licensing requirements of
                     vendors; (4) any additional expenses associated with training and boarding of
                     canines and their handlers under this contract; (5) the adequacy of CBP’s plan
                     for handling procured canines that are unsuitable for service; and (6) the role
                     of canine deployment in CBP’s overall protection strategy.

                     We reviewed the Federal Acquisition Regulations, and CBP’s internal
                     procurement policies and guidelines. We examined documents related to the
                     solicitation and award process, methods used to determine the costs for
                     procuring, training, and boarding the canine teams. We interviewed U.S.
                     Department of Agriculture officials regarding licensing requirements for
                     vendors engaged in the sale of animals, and contacted the United States Secret
                     Service, Transportation Security Administration, and U.S. Department of
                     Defense to determine their average price paid for untrained canines, as well as
                     the General Services Administration regarding the disposition of canines from
                     the training programs or through retirement.

                     During our fieldwork, we interviewed CBP officials from the Office of
                     Procurement, Office of Border Patrol, Office of Field Operations, Office of
                     Training and Development, and the Office of Finance-Asset Management.
                     We visited the Canine Center – Front Royal in Virginia and the Canine Center
                     – El Paso in Texas to observe a demonstration of pre-selection tests for
                     canines, and tour the training and kennel facilities. We also observed canine
                     deployment operations in El Paso and Laredo, Texas; Las Cruces, New
                     Mexico; John F. Kennedy International Airport in New York; Newark Liberty
                     International Airport in New Jersey, and, the New York-New Jersey Seaport
                     in Elizabeth, New Jersey. We visited two of the seven vendors selected for
                     this procurement, and held teleconferences with the remaining five vendors.
                     We also held a teleconference with the Rhode Island state veterinarian to
                     obtain information regarding the July 2004 deaths of seven dogs while in the
                     care of the International Canine Exchange, one of the seven vendors selected
                     under this contract.


          A Review of U.S. Customs and Border Protection’s Procurement of Untrained Canines 


                                               Page 19

Appendix A
Purpose, Scope, and Methodology



                     We conducted our fieldwork from May 2007 through August 2007. This
                     review was scheduled as part of our annual work plan. Our review was
                     conducted under the authority of the Inspector General Act of 1978, as
                     amended, and according to the Quality Standards for Inspections issued by the
                     President’s Council on Integrity and Efficiency.




          A Review of U.S. Customs and Border Protection’s Procurement of Untrained Canines 


                                               Page 20

Appendix B
Management Comments to the Draft Report




         A Review of U.S. Customs and Border Protection’s Procurement of Untrained Canines 


                                              Page 21

Appendix B
Management Comments to the Draft Report




         A Review of U.S. Customs and Border Protection’s Procurement of Untrained Canines 


                                              Page 22

Appendix B
Management Comments to the Draft Report




         A Review of U.S. Customs and Border Protection’s Procurement of Untrained Canines 


                                              Page 23

Appendix B
Management Comments to the Draft Report




         A Review of U.S. Customs and Border Protection’s Procurement of Untrained Canines 


                                              Page 24

Appendix C
Congressional Letter




          A Review of U.S. Customs and Border Protection’s Procurement of Untrained Canines 


                                               Page 25

Appendix C
Congressional Letter




          A Review of U.S. Customs and Border Protection’s Procurement of Untrained Canines 


                                               Page 26

Appendix C
Congressional Letter




          A Review of U.S. Customs and Border Protection’s Procurement of Untrained Canines 


                                               Page 27

Appendix C
Congressional Letter




          A Review of U.S. Customs and Border Protection’s Procurement of Untrained Canines 


                                               Page 28

Appendix D
Major Contributors to this Report


                     Deborah Outten-Mills, Chief Inspector, Department of Homeland Security,
                     Office of Inspections

                     M. Faizul Islam, Senior Inspector, Department of Homeland Security, Office
                     of Inspections

                     Jessica Barnes, Inspector, Department of Homeland Security, Office of
                     Inspections




          A Review of U.S. Customs and Border Protection’s Procurement of Untrained Canines 


                                               Page 29

Appendix E
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Policy
                      Assistant Secretary for Public Affairs
                      Assistant Secretary for Legislative Affairs
                      Commissioner of Customs and Border Protection
                      DHS OIG Liaison
                      CBP Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as appropriate




          A Review of U.S. Customs and Border Protection’s Procurement of Untrained Canines 


                                               Page 30

Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General (OIG) at
(202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web site at
www.dhs.gov/oig.


OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to use at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528,

The OIG seeks to protect the identity of each writer and caller.
